Ca^f8#67l§@4fefl#ll££j£0d6fciWi£fl?3§1, f^y£0te$2Ba3%c|(?l'bf 1

UNITED STATES COURT OF APPEALS

FILED

FOR THE NINTH CIRCUIT

MAY 15 2020
MOLLY C. DWYER, CLERK
U.S. COURT OF APPEALS

No.

ESAU DOZIER,
Petitioner-Appellant,
v.

DWIGHT NEVEN, Warden; ATTORNEY
GENERAL FOR THE STATE OF
NEVADA,

20-15012

D.C. No. 2:08-cv-00489-KJD-EJY
District of Nevada,
Las Vegas
ORDER

Respondents-Appellees.
Before:

CANBY and CALLAHAN, Circuit Judges.

The request for a certificate of appealability (Docket Entry No. 2) is denied
because appellant has not made a “substantial showing of the denial of a
constitutional right.” 28 U.S.C. § 2253(c)(2); see also Miller-El v. Cockrell, 537
U.S. 322, 327 (2003).
Any pending motions are denied as moot.
DENIED.

txlru bit ~ A

Case 2:08-cv-00489-KJD-EJY Document 59 Filed 12/11/19 Page 1 of 12

1
2
3
4
5
6

UNITED STATES DISTRICT COURT

7

DISTRICT OF NEVADA

8

** *

9

ESAU DOZIER

10

Case No. 2:08-cv-00489-KJD-GWF
Petitioner,

ORDER

v.
. 11
DWIGHT NEVEN, et al.
12
Respondents.
13

Esau Dozier’s 28 U.S.C. § 2254 petition for writ of habeas corpus is before the

14
15

court for final disposition on the merits (ECF No. 6).

16

I.

17

In December 2004, a jury convicted Dozier of two counts of robbery with a deadly

Background & Procedural History

18

weapon (counts 1 and 2) and burglary (count 3). Exh. 31.1 The state district court

19

sentenced him as follows: 72 to 180 months each on counts 1 and 2, with a like and

20

consecutive term for the deadly weapon enhancement on each count; 72 to 180 months

21

on count 3, counts 1 and 2 to run consecutively, and count 3 to run concurrently. Exh.

22

36, p. 24. Judgment was entered in February 2005. Exh. 37.
The Nevada Supreme Court affirmed Dozier’s convictions and subsequently

23
24

affirmed the denial of his state postconviction petition. Exhs. 56, 85.
This court originally granted respondents’ motion to dismiss this federal petition as

25
26

time-barred, and judgment was entered (ECF No. 25, 26). Dozier ultimately filed a

27
28

1

Exhibits referenced in this order are exhibits to petitioner’s motion for relief from judgment, ECF No.36,
and are found at ECF Nos. 37-40.

1

Case 2:08-cv-00489-KJD-EJY Document 59 Filed 12/11/19 Page 2 of 12

1
2
3
4
5
6
7
8

9

motion for relief from judgment, which demonstrated that respondents had failed to
provide this court with the complete state-court record and that the complete state-court
record demonstrated that Dozier’s federal petition was in fact timely (ECF No. 36). This
court vacated the judgment and directed respondents to answer grounds 1 and 3 (ECF
No. 48). Respondents have answered, and petitioner filed a reply (ECF No. 53, 54).
II.

Antiterrorism and Effective Death Penalty Act
28 U.S.C. § 2254(d), a provision of the Antiterrorism and Effective Death Penalty

Act (AEDPA), provides the legal standards for this court’s consideration of the petition in
this case:

10
11
12
13
14

15
16
17

18
19
20
21
22
23
24
25
26

An application for a writ of habeas corpus on behalf of a person in
custody pursuant to the judgment of a State court shall not be granted with
respect to any claim that was adjudicated on the merits in State court
proceedings unless the adjudication of the claim —
resulted in a decision that was contrary to, or involved an
(1)
unreasonable application of, clearly established Federal law, as determined
by the Supreme Court of the United States; or
resulted in a decision that was based on an unreasonable
(2)
determination of the facts in light of the evidence presented in the State
court proceeding.
The AEDPA “modified a federal habeas court’s role in reviewing state prisoner
applications in order to prevent federal habeas ‘retrials’ and to ensure that state-court
convictions are given effect to the extent possible under law.” Bell v. Cone, 535 U.S.
685, 693-694 (2002). This Court’s ability to grant a writ is limited to cases where “there
is no possibility fair-minded jurists could disagree that the state court’s decision conflicts
with [Supreme Court] precedents.” Harrington v. Richter, 562 U.S. 86, 102 (2011). The
Supreme Court has emphasized “that even a strong case for relief does not mean the
state court's contrary conclusion was unreasonable.” Id. (citing Lockyer v. Andrade, 538
U.S. 63, 75 (2003)); see also Cullen v. Pinholster, 563 U.S. 170, 181 (2011) (describing
the AEDPA standard as “a difficult to meet and highly deferential standard for evaluating

27
28
2

Case 2:08-cv-00489-KJD-EJY Document 59 Filed 12/11/19 Page 3 of 12

1
2
3
4
5
6
7
8

9
10
11
12
13
14

15
16
17
18
19
20

21
22
23
24

state-court rulings, which demands that state-court decisions be given the benefit of the
doubt”) (internal quotation marks and citations omitted).
A state court decision is contrary to clearly established Supreme Court
precedent, within the meaning of 28 U.S.C. § 2254, “if the state court applies a rule that
contradicts the governing law set forth in [the Supreme Court’s] cases” or “if the state
court confronts a set of facts that are materially indistinguishable from a decision of [the
Supreme Court] and nevertheless arrives at a result different from [the Supreme
Court’s] precedent.” Lockyer, 538 U.S. at 73 (quoting Williams v. Taylor, 529 U.S. 362,
405-06 (2000), and citing Bell, 535 U.S. at 694.
A state court decision is an unreasonable application of clearly established
Supreme Court precedent, within the meaning of 28 U.S.C. § 2254(d), “if the state court
identifies the correct governing legal principle from [the Supreme Court’s] decisions but
unreasonably applies that principle to the facts of the prisoner’s case.” Lockyer, 538
U.S. at 74 (quoting Williams, 529 U.S. at 413). The “unreasonable application” clause
requires the state court decision to be more than incorrect or erroneous; the state
court’s application of clearly established law must be objectively unreasonable. Id.
(quoting Williams, 529 U.S. at 409).
To the extent that the state court’s factual findings are challenged, the
“unreasonable determination of fact” clause of § 2254(d)(2) controls on federal habeas
review. E.g., Lambert v. Blodgett, 393 F.3d 943, 972 (9th Cir.2004). This clause
requires that the federal courts “must be particularly deferential” to state court factual
determinations. Id. The governing standard is not satisfied by a showing merely that the
state court finding was “clearly erroneous.” 393 F.3d at 973. Rather, AEDPA requires
substantially more deference:

25
26
27
28

.... [I]n concluding that a state-court finding is unsupported by substantial
evidence in the state-court record, it is not enough that we would reverse in
similar circumstances if this were an appeal from a district court decision.
Rather, we must be convinced that an appellate panel, applying the normal
standards of appellate review, could not reasonably conclude that the
finding is supported by the record.
3

Case 2:08-cv-00489-KJD-EJY Document 59 Filed 12/11/19 Page 4 of 12

1
Taylor v. Maddox, 366 F.3d 992, 1000 (9th Cir.2004); see also Lambert, 393

2
3

F.3d at 972.
Under 28 U.S.C. § 2254(e)(1), state court factual findings are presumed to be

4
5

correct unless rebutted by clear and convincing evidence. The petitioner bears the

6

burden of proving by a preponderance of the evidence that he is entitled to habeas

7

relief. Cullen, 563 U.S. at 181.

8

9

III.

Instant Petition
Ground 1

10

Dozier contends that his convictions were not supported by sufficient evidence in

11

violation of his Fourteenth Amendment due process rights (ECF No. 6, p. 3). He argues

12

that the robbery victims were unable to identify him and that the State did not establish

13

use of a deadly weapon beyond a reasonable doubt.

14

“The Constitution prohibits the criminal conviction of any person except upon proof

15

of guilt beyond a reasonable doubt.” Jackson v. Virginia, 443 U.S. 307, 309 (1979)

16

(citing In re Winship, 397 U.S. 358 (1970)). On federal habeas corpus review of a

17

judgment of conviction pursuant to 28 U.S.C. § 2254, the petitioner “is entitled to

18

habeas corpus relief if it is found that upon the record evidence adduced at the trial no

19

rational trier of fact could have found proof of guilt beyond a reasonable doubt.” Id. at

20

324. “[T]he standard must be applied with explicit reference to the substantive elements

21

of the criminal offense as defined by state law.” Id. at 324 n.16. On habeas review, this

22

court must assume that the trier of fact resolved any evidentiary conflicts in favor of the

23

prosecution and must defer to such resolution. Id. at 326. Generally, the credibility of

24

witnesses is beyond the scope of a review of the sufficiency of the evidence. Schlup v.

25

Delo, 513 U.S. 298, 330 (1995).

26

Demissie Kelemework testified at trial that she had been visiting Reno with several

27

friends on the night in question. Exh. 29, pp. 113-129. She and Mulunesh Gutema had

28

stepped inside their motel room when a man pushed into the room before she locked
4

Case 2:08-cv-00489-KJD-EJY Document 59 Filed 12/11/19 Page 5 of 12

1
2
3
4
5
6
7
8

9
10
11
12
13
14
15
16
17
18
19
20

21
22
23
24
25
26
27

the door. Kelemework said that the man had a black gun that was probably 12 inches
long. She described the man as black, about 150 to 160 pounds, neat, clean-shaven
and nicely dressed. He took her fanny pack and other items and stuffed them in a red
bag that was in the room. He took a gift bag that belonged to a black woman from
Pleasanton, California who was not in the room at the time. Kelemework identified
Dozier and one other man from a police photo lineup as the possible robber. In court,
while she identified Dozier, she acknowledged that she was not 100% certain he was
the robber.
Ms. Gutema also testified. Id. at 129-143. She stated that she and Kelemework had
gone back to their motel room to get their jackets. She had about $600-700 in a fanny
pack that she was wearing. The man that forced his way into their room was black with
a shaved or bald head and had a black gun about 12 inches long. He put all the items
he took in a red bag with a black strap that belonged to Gutema. She testified that she
was not certain Dozier was the robber.
Reno Police Officer Thomas Mueller testified that he met with the victims the night of
the robbery. Id. at 143-150. They described the robber as a black male, approximately
30 to 40 years of age with a shaved head, clean-shaven, 160 to'180 pounds, wearing
black and holding a black pistol. Reno Police Officer Eric Stroshine testified that a
couple of months after the robbery he was contacted by Katherine Stewart, who wanted
to file a report of an embezzled vehicle. Id. at 150-152. Stewart also told him she had
information about the armed robbery. Months before trial, the state district court issued
a material witness order requiring Stewart to post bail as a material witness in order to
secure her presence at Dozier’s trial. Exh. 9.
Katherine Stewart subsequently testified at trial that Dozier had been her boyfriend
for about a year and one-half. Exh. 29, pp. 156-177. Dozier had a black revolver about
12 inches long. On the night in question, Stewart and Dozier did not have a place to
stay, so she parked in downtown Reno and was going to sleep in her car. Dozier’s gun

28
5

Case 2:08-cv-00489-KJD-EJY Document 59 Filed 12/11/19 Page 6 of 12

1
2
3
4
5
6
7
8

9
10
11
12

was in a suitcase in the trunk of her car. He told her he was going to “go do some
hustling,” he went to the trunk of the car, but Stewart did not see what he took from the
trunk. Dozier was dressed in a black leather jacket, black t-shirt, dark Levi’s, and black
boots. Stewart locked the car and went to sleep. Dozier returned, Stewart unlocked the
car, Dozier threw a red bag with a black strap in the car, got in the driver’s seat, started
the car and drove away. She described him as “excited, wanting to get out of there; he
was sweating.” Id. at 165. He drove them to Sparks and got a room at a Motel 6. In the
hotel room he dumped out the bag, and Stewart saw two purses or fanny packs and a
gift bag. In the purse was a California driver’s license with a photo of a black woman
and a Pleasanton address.
The Nevada Supreme Court rejected Dozier’s challenge to the sufficiency of the
evidence on appeal:

13
14

15
16
17
18
19
20

21
22
23
24
25
26
27

First, Dozier contends that insufficient evidence was adduced at trial to
support his convictions for robbery and burglary. The standard of review
for a challenge to the sufficiency of the evidence to support a criminal
conviction is ‘“whether, after viewing the evidence in the light most
favorable to the prosecution, any rational trier of fact could have found the
essential elements of the crime beyond a reasonable doubt.’” McNair v.
State, 825 P.2d 571, 573 (Nev. 1992) (quoting Jackson v. Virginia, 443
U.S. 307, 319 (1979)).
Here, victims Demissie Kelemework and Mulunesh Gutema both
testified that at about 10:15 pm on May 25, 2002, a man with a gun
entered their El Ray Motel room and ordered them to be quiet and to give
him whatever they had. They were scared and gave the man their leather
fanny packs, each of which contained several hundred dollars. The man
also took a small gift bag that belonged to a black female friend of theirs
from Pleasanton, California. The man packed the things he was taking into
a red traveling bag with a black strap. Kelemework described the man as
a 30 to 40-year-old black male, well-shaven, and dressed in nice clothes.
Gutema described the man as a black male with a clean-shaven head.
Neither woman was 100 percent sure that Dozier was the robber.
Reno Police Officer Thomas Mueller testified that, at about 10:50 pm
on May 25, 2002, he was called to the area of The Sands Casino
regarding a robbery that occurred at the El Ray Motel. He stated that the
victims described the robber as a clean-shaven black male, 30 to 40 years

28
6

Case 2:08-cv-00489-KJD-EJY Document 59 Filed 12/11/19 Page 7 of 12

1
2
3
4
5
6
7
8

9
10
11
12
13
14

15
16
17
18
19
20

21

of age, who had a shaven head, was dressed in a black top and black
pants, and was armed with a black pistol.
Katherine Stewart, Dozier's former girlfriend, testified that on May 25,
2002, she drove from Concord, California to Reno to visit Dozier. She was
tired and they did not have money for a hotel room, so they parked by The
Sands and Sundowner sometime after nightfall and Stewart slept in the
car. Dozier, however, wanted to go to the casinos and do some hustling.
He got out of the car, opened and closed the trunk, and left. Stewart knew
that Dozier's handgun was in the trunk. When Dozier returned, he had a
red canvas bag with a black strap, which Stewart described as "like a gym
bag." Dozier was excited, sweating, and wanted to leave. They drove from
Reno to Sparks where they got a hotel room. Dozier dumped the contents
of the red bag onto the bed. They included a small gift bag, a leather fanny
pack, a purse, and $200.00. Stewart also saw a California driver's license;
it had a picture of black woman and listed a Pleasanton address. Stewart
stated that Dozier was dressed in a black leather jacket, black T-shirt, dark
Levi's, and black boots.
We conclude that the jury could reasonably infer from the
circumstantial evidence presented at trial that Dozier committed the
crimes of robbery and burglary. It is for the jury to determine the weight
and credibility to give conflicting testimony, and the jury's verdict will not
be disturbed on appeal where, as here, sufficient evidence supports the
verdict.
Second, Dozier claims that insufficient evidence was adduced at trial to
show he used a deadly weapon or handgun. However, both Kelemework
and Gutema testified that the robber had a big black gun, which they
indicated was about a foot long. And Stewart testified that she had actually
handled Dozier's handgun, it was a black revolver about a foot long, and it
was in Dozier's suitcase in the trunk of her car on the night of the robbery.
We conclude that a jury could reasonably infer from this testimony that
Dozier used a handgun to commit robbery, and that there is sufficient
evidence to support the jury's verdict.

22

Exh. 56, pp. 1-4. Dozier argues that the Nevada Supreme Court ignored Stewart’s

23

motivation to lie because she was angry with him over taking her car (ECF No. 54, pp.

24

4-7). But it is up to the jury to weigh credibility, and the credibility of witnesses is

25

generally beyond the scope of a review of the sufficiency of the evidence. Schlup, 513

26

U.S. at 330. Dozier has not shown that no rational trier of fact could have found proof of

27

guilt beyond a reasonable doubt. Jackson, 443 U.S. at 324. He has failed to

28

demonstrate that the Nevada Supreme Court decision on federal ground 1 was contrary
7

Case 2:08-cv-00489-KJD-EJY Document 59 Filed 12/11/19 Page 8 of 12

1
2
3
4
5
6
7
8

9
10
11
12
13
14
15
16
17
18
19
20

21
22
23
24
25
26
27

to, or involved an unreasonable application of, clearly established U.S. Supreme Court
law, or was based on an unreasonable determination of the facts in light of the evidence
presented in the state court proceeding. 28 U.S.C. § 2254(d). Accordingly, Dozier is
not entitled to relief on ground 1.

Ground 3
Dozier contends that his sentence for the deadly weapon enhancement exceeded
the statutory limitation and violated his Eighth Amendment right to be free from cruel
and unusual punishment (ECF No. 6, p. 7). ' While not entirely clear, Dozier appears to
also assert that his trial counsel was ineffective for failing to object to the sentence
imposed at the sentencing hearing. Id.
Respondents argue that neither claim was properly exhausted as a federal
constitutional claim in state court (ECF No. 53, pp. 11-13). As these claims fail on the
merits even under de novo review, the court need not address the exhaustion issue.
See Jones v. Ryan, 691 F.3d 1093, 1101 n.2 (9th Cir. 2012).
“The Eighth Amendment does not require strict proportionality between crime and
sentence. Rather, it forbids only extreme sentences that are ‘grossly disproportionate’ to
the crime.” Harmelin v. Michigan, 501 U.S. 957, 1001 (1991) (Kennedy, J., concurring);
see, e.g., Solem v. Helm, 463 U.S. 277, 303 (1983) (holding that a sentence of life
imprisonment without the possibility of parole for seventh nonviolent felony violates
Eighth Amendment). “[Ojutside the context of capital punishment, successful challenges
to the proportionality of particular sentences will be exceedingly rare.” Id. at 289- 90. For
purposes of federal habeas review, under 28 U.S.C. § 2254(d)(1), “[a] gross
proportionality principle is applicable to sentences for terms of years.” Lockyer v.
Andrade, 538 U.S. 63, 72 (2003). Thus, the federal proportionality analysis comes into
play “only in the rare case in which a threshold comparison of the crime committed and
the sentence imposed leads to an inference of gross disproportionality.” Harmelin, 501
U.S. at 1005.

28
8

Case 2:08-cv-00489-KJD-EJY Document 59 Filed 12/11/19 Page 9 of 12

1
2
3
4
5
6

The state district court sentenced Dozier to 72 to 180 months on each of the two
robbery with a deadly weapon counts, with an equal and consecutive term for the
deadly weapon enhancement on each of the two counts, count 1 and 2 to run
consecutively. Exh. 36, pp. 24. The court sentenced him to 72 to 180 months on the
burglary count, to run concurrently. Id.
The Nevada Supreme Court rejected this claim:

7
8

9
10
11
12
13
14

15

Third, Dozier contends that the district court improperly applied the
deadly weapon enhancement to his robbery sentences. He argues that
because the deadly weapon enhancement must be "equal to and in
addition to the term of imprisonment prescribed by statute for the crime"
(NRS 193.165(1)) and that the term of imprisonment prescribed by statute
for the crime of robbery is 2 to 15 years, the district court erred when it
sentenced him to an equal and additional term of 6 to 15 years. However,
our review of the record reveals that the district court properly sentenced
Dozier for his robbery convictions and correctly enhanced the sentences
with equal and consecutive terms of imprisonment for the use of a deadly
weapon. The district court imposed enhancements that fell within the
sentencing limits prescribed by NRS 200.380(2) as required by NRS
193.165(1). Accordingly, we conclude that the district court did not err.
Exh. 56, p. 4. Respondents point out that Dozier did not invoke the Eighth

16
Amendment in his direct appeal (ECF No. 53, pp. 11), though he did argue that his

17
sentence constituted cruel and unusual punishment. In any event, the Nevada statute

18
proscribes that robbery is punishable by a minimum term of 2 years and a maximum

19
term of 15 years. NRS 200.380(2). The state district court sentenced him on robbery
20
with a deadly weapon and burglary counts to terms well within the statutory parameters.

21
A comparison of the crimes committed and the sentences imposed certainly does not
22
give rise to an inference of gross disproportionality here. Harmelin, 501 U.S. at 1005.
23
As to whether Dozier’s counsel was ineffective for failing to object to the sentence at
24
the sentencing hearing, ineffective assistance of counsel (IAC) claims are governed by
25
the two-part test announced in Strickland v. Washington, 466 U.S. 668 (1984). In
26
Strickland, the Supreme Court held that a petitioner claiming ineffective assistance of
27
counsel has the burden of demonstrating that (1) the attorney made errors so serious
28

9

Case 2:08-cv-00489-KJD-EJY Document 59 Filed 12/11/19 Page 10 of 12

1
2
3
4
5
6
7
8

9
10
11
12
13
14

15
16
17
18
19
20

21
22
23
24
25
26

that he or she was not functioning as the “counsel” guaranteed by the Sixth
Amendment, and (2) that the deficient performance prejudiced the defense. Williams,
529 U S. at 390-91 (citing Strickland, 466 U.S. at 687). To establish ineffectiveness, the
defendant must show that counsel’s representation fell below an objective standard of
reasonableness. Id. To establish prejudice, the defendant must show that there is a
reasonable probability that, but for counsel’s unprofessional errors, the result of the
proceeding would have been different. Id. A reasonable probability is “probability
sufficient to undermine confidence in the outcome.” Id. Additionally, any review of the
attorney’s performance must be “highly deferential” and must adopt counsel’s
perspective at the time of the challenged conduct, in order to avoid the distorting effects
of hindsight. Strickland, 466 U.S. at 689. It is the petitioner’s burden to overcome the
presumption that counsel’s actions might be considered sound trial strategy. Id.
Ineffective assistance of counsel under Strickland requires a showing of deficient
performance of counsel resulting in prejudice, “with performance being measured
against an objective standard of reasonableness, . . . under prevailing professional
norms.” Rompilla v. Beard, 545 U.S. 374, 380 (2005) (internal quotations and citations
omitted). When the ineffective assistance of counsel claim is based on a challenge to a
guilty plea, the Strickland prejudice prong requires a petitioner to demonstrate “that
there is a reasonable probability that, but for counsel’s errors, he would not have
pleaded guilty and would have insisted on going to trial.” Hill v. Lockhart, 474 U.S. 52,

59 (1985).
When pronouncing the sentences, the court explained that it followed the
recommendation of the Division of Parole and Probation, that it considered Dozier’s
criminal history, that armed robbery is an extraordinarily dangerous and violent offense
and that the victims will never be free from the trauma that was inflicted. Exh. 36, pp.
26-27. Dozier has not shown that there was a reasonable probability of a different

27
28

10

Case 2:08-cv-00489-KJD-EJY Document 59 Filed 12/11/19 Page 11 of 12

1
2
3
4
5
6
7
8

9
10
11
12
13
14
15
16
17
18
19
20

outcome if counsel had objected to the sentence imposed at the time of the sentencing
hearing. Both claims in ground 3 are, therefore, denied.
Thus, the petition is denied in its entirety.

IV.

Certificate of Appealability

This is a final order adverse to the petitioner. As such, Rule 11 of the Rules
Governing Section 2254 Cases requires this court to issue or deny a certificate of
appealability (COA). Accordingly, the court has sua sponte evaluated the claims within
the petition for suitability for the issuance of a COA. See 28 U.S.C. § 2253(c); Turner v.
Calderon, 281 F.3d 851, 864-65 (9th Cir. 2002).
Pursuant to 28 U.S.C. § 2253(c)(2), a COA may issue only when the petitioner "has
made a substantial showing of the denial of a constitutional right." With respect to
claims rejected on the merits, a petitioner "must demonstrate that reasonable jurists
would find the district court's assessment of the constitutional claims debatable or
wrong." Slack v. McDaniel, 529 U.S. 473, 484 (2000) (citing Barefoot v. Estelle, 463
U.S. 880, 893 & n.4 (1983)). For procedural rulings, a COA will issue only if reasonable
jurists could debate (1) whether the petition states a valid claim of the denial of a
constitutional right and (2) whether the court's procedural ruling was correct. Id.
Having reviewed its determinations and rulings in adjudicating Dozier’s petition, the
court finds that none of those rulings meets the Slack standard. The court therefore
declines to issue a certificate of appealability for its resolution of any of Dozier’s claims.

21
22
23
24
25
26
27
28

11

Case 2:08-cv-00489-KJD-EJY Document 59 Filed 12/11/19 Page 12 of 12

1
2
3
4
5
6

V.

Conclusion

IT IS THEREFORE ORDERED that the petition (ECF No. 6) is DENIED in its
entirety.
IT IS FURTHER ORDERED that a certificate of appealability is DENIED.
IT IS FURTHER ORDERED that the Clerk shall enter judgment accordingly and
close this case.

7
8

DATED: 11 December 2019.

9
KENT J. DAWSON
UNITED STATES DISTRICT JUDGE

10
11
12
13
14
15
16
17
18
19
20
21
22
23
24
25
26
27
28
12

Case 2:08-cv-00489-KJD-EJY Document 60 Filed 12/12/19 Page 1 of 1
AO450 (NVD Rev. 2/18) Judgment in a Civil Case

United States District Court
DISTRICT OF NEVADA
Esau Dozier,
JUDGMENT IN A CIVIL CASE
Petitioner,
v.

Case Number: 2:08-cv-00489-KJD-EJY

Neven, et al.,
Respondents.
Jury Verdict. This action came before the Court for a trial by jury. The issues have been tried and
the jury has rendered its verdict.
Decision by Court. This action came to trial or hearing before the Court. The issues have been tried
or heard and a decision has been rendered.
X

Decision by Court. This action came for consideration before the Court. The issues have been ,
considered and a decision has been rendered.

IT IS ORDERED AND ADJUDGED
that Judgment is entered in favor of Respondents and against Petitioner Esau Dozier. IT IS FURTHER
ORDERED that a certificate of appealability is DENIED.

12/12/2019
Date

DEBRA K, KEMPI
Clerk

/s/ S. Denson
Deputy Clerk

UNITED STATES COURT OF APPEALS

FILED

FOR THE NINTH CIRCUIT

AUG 7 2020
MOLLY C. DWYER, CLERK
.

ESAU DOZIER,

No.

Petitioner-Appellant,
v.
DWIGHT NEVEN, Warden; ATTORNEY
GENERAL FOR THE STATE OF
NEVADA,

U S. COURT OF APPEALS

20-15012

D.C. No. 2:08-cv-00489-KJD-EJY
District of Nevada,
Las Vegas
ORDER

Respondents-Appellees.
Before:

McKEOWN and BADE, Circuit Judges.

Appellant’s motion for reconsideration en banc (Docket Entry No. 8) is
denied on behalf of the court. See 9th Cir. R. 27-10; 9th Cir. Gen. Ord. 6.11.
No further filings will be entertained in this closed case.

EyMatf -C

Additional material
from this filing is
available in the
Clerk's Office.

